Final Assessment Report 08-07, May 30, 2008, “Protection of E-Passport Production
System”

GPO’s Passport Printing and Production System (PPPS) includes various computer
applications and operating systems that support the production of passports. GPO’s Plant
Operations Division administers PPPS computer applications while the GPO Chief
Information Officer (CIO) is responsible for administering PPPS operating systems.
While performing a security audit of databases that support the e-Passport production
system (PPPS) hosted in Washington D.C., the OIG identified an issue related to the
protection of the e-Passport network and related computers. We issued a separate
sensitive report containing recommendations to help further strengthen controls over the
PPPS. Management took prompt corrective action to implement the recommendation.




SENSITIVE BUT UNCLASSIFIED INFORMATION – FOR OFFICIAL USE ONLY
                                           1
